        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Fresno County Economic
Opportunities Commission 
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-13-11                        February 2013
                                    Department of Energy
                                       Washington, DC 20585

                                          February 19, 2013

          
 MEMORANDUM FOR THE ASSISTANT SECRETARY FOR ENERGY EFFICIENCY
                AND RENEWABLE ENERGY




 FROM:                       Rickey R. Hass
                             Deputy Inspector General
                                for Audits and Inspections
                             Office of Inspector General

 SUBJECT:                    INFORMATION: Examination Report on "Fresno County Economic
                             Opportunities Commission − Weatherization Assistance Program
                             Funds Provided by the American Recovery and Reinvestment Act of
                             2009"

BACKGROUND

The attached report presents the results of an examination of the Fresno County Economic
Opportunities Commission's (Agency) implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) Weatherization Assistance Program (Weatherization
Program). The Office of Inspector General (OIG) contracted with an independent certified
public accounting firm, Lopez and Company, LLP, to express an opinion on the Agency's
compliance with Federal and State laws, regulations and program guidelines applicable to the
Weatherization Program. The Agency is a sub-recipient of the Department of Energy's
(Department) Recovery Act Weatherization Program funding for the State of California.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of California received $186 million in
Recovery Act Weatherization Program funding, of which $11.2 million was allocated to the
Agency to weatherize 5,374 homes. The State of California Department of Community Services
and Development (State) was responsible for administering Weatherization Program grants,
including funds provided to the Agency.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that except for the weaknesses described in its
report, the Agency complied in all material respects with the requirements and guidelines
relative to the Weatherization Program for the period June 30, 2009 through June 30, 2011.

However, the examination found that the Agency:

            Selected a contractor to administer its Recovery Act Weatherization Program without
             considering the price of services, as required. In addition, the Agency executed
                                                2


         multiple contracts with its weatherization contractor that did not clearly document
         agreed-upon terms and conditions. However, because the Agency was able to provide
         documentation supporting its assertion that prices charged under the Recovery Act
         contract were comparable to bids received during a more recent 2012 procurement
         competition, Lopez and Company, LLP, did not question the costs associated with the
         Recovery Act contract. Nevertheless, Lopez and Company, LLP, remained concerned
         that in establishing a fixed-rate contract, the Agency agreed to pay for weatherization
         services at the State's maximum rates without ensuring upfront that the prices were
         reasonable.

 In addition, the examination found that the Agency's primary weatherization contractor:

        Improperly approved and/or documented the eligibility of applicants. Lopez and
         Company, LLP, reviewed 40 separate applicant files maintained by the contractor and
         found that an ineligible applicant had received weatherization services, another lacked
         sufficient income documentation, and for 6 others, the monthly/annual income
         calculation was incorrect. As a result of these issues, Lopez and Company, LLP,
         questioned $3,800 of costs incurred for weatherization services.

        Incorrectly reported its labor hours to the Agency for purposes of reporting total jobs
         created and retained under the Recovery Act. Specifically, the Agency reported
         estimated labor hours rather than actual labor hours incurred as required.
The report makes recommendations to the Agency to improve the administration of its
Weatherization Program. The Agency provided comments that expressed agreement with the
findings and has already begun to address the issues identified. While we consider these
comments and corrective actions to be responsive to the recommendations, the Department needs
to ensure that the actions taken are adequate to address the findings. The Agency's comments are
included in their entirety in Attachment 1.

RECOMMENDATIONS

We recommend the Assistant Secretary for Energy Efficiency and Renewable Energy:

     1. Require the State of California to improve administration of Weatherization Program
        funds by ensuring the Agency implements the recommendations outlined in the report.

We also recommend the Contracting Officer for the State of California Weatherization
Assistance Grant:

     2. Resolve identified questioned costs.

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Department agreed with the recommendations outlined in this memorandum and stated that
it will conduct the necessary follow-up review of State and Agency operations to ensure that all
                                                 3


recommendations are implemented on a timely basis. The Department also noted that it will
recover the identified questioned costs where the Agency was unable to provide adequate
documentation for client eligibility. Additionally, the Department stated that it would verify the
implementation of corrective actions during an upcoming site visit in April 2013. The
Department's comments are included in their entirety in Attachment 2.

The State concurred with the recommendations to the Agency made by Lopez and Company,
LLP, in the examination report, and agreed with the corrective actions planned or taken by the
Agency. The State also indicated that it would work with the Agency to ensure corrective
actions were completed. The State's comments are included in their entirety in Attachment 3.

The comments provided by the Department and the State were responsive to the
recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of
the United States. The examination-level procedures included gaining an understanding of the
Agency's policies and procedures and reviewing applicable Weatherization Program
documentation. The procedures also included an analysis of the Agency's procurement process,
weatherization contracts, applicant eligibility, and compliance with the reporting requirements of
the Recovery Act. Finally, an analysis of associated expenditure data was conducted to test the
allowability of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP, did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated September 4, 2012, and the conclusions expressed in the
report.

Attachments

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
 




                                                                              
                                                                              
                                                                             Attachment 1
 
 
 
 
 
 
 
 
 
 
 
                              EXAMINATION REPORT ON COMPLIANCE

                                                                      OF

                            Recovery Act Weatherization Assistance Program
                                                   
                           Fresno County Economic Opportunities Commission
                                                   
                                                   
 
                                              PERFORMED FOR
                                                        
                                       U.S. DEPARTMENT OF ENERGY
                                      OFFICE OF INSPECTOR GENERAL
                                                        
                                                        
                                                        
                                                  Prepared by
                                                        
                                        Lopez and Company, LLP Report

                                         Date: September 4, 2012
                                                     
                                                     
                                                     
                                    CONTRACT NUMBER: DE-IG0000017
                                                     
                                     WORK ORDER NUMBER: 2011-02 
 
 
 
 
 
 
    14728 Pipeline Avenue▪ Suite E ▪ Chino Hills ▪ California 91709
    Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
 
                                                                                                        Attachment 1 (continued)
 
 
 
 
 
 
 
                                                          Table of Contents
 
 
 
 
    INDEPENDENT ACCOUNTANT'S REPORT......................................................................... 1
 
    Section I Description of Fresno County Economic Opportunities Commission Weatherization
              Assistance Program.......................................................................................................... 2
 
    Section II Classification of Findings............................................................................................... 3
 
    Section III Summary of Findings.................................................................................................... 4
 
    Section IV Schedule of Findings .....................................................................................................5
 
    Section V Complete Management Response .................................................................................10
 
                     Attachment 1 (continued)
 




            Page 1   Lopez and Company, LLP
 
                                                                          Attachment 1 (continued)
 
 
            Section I Description of Fresno County Economic Opportunities
                    Commission Weatherization Assistance Program
 
    The Fresno County Economic Opportunities Commission (Agency) operates as a private, non-
    profit community action agency in the State of California. The Agency was incorporated in 1965
    after passage of the Economic Opportunity Act of 1964. The Agency is a local human services
    agency that provides assistance to economically and socially disadvantaged persons in the Fresno
    County region through various types of health and welfare services and programs. The Agency
    receives its grant support primarily from the State of California Department of Community
    Services and Development (State) for the purpose of participating in the Weatherization
    Assistance Program (Weatherization Program) with funds appropriated under the authority of the
    American Recovery and Reinvestment Act of 2009 (Recovery Act).
 
    Under the Recovery Act, the State of California received a grant of approximately $186 million
    from the U.S. Department of Energy (Department) for the Weatherization Program. The State
    allocated about $11.2 million of its grant to the Agency to weatherize 5,374 homes. These funds
    were to be expended over a 3-year period ending September 30, 2012. As of that date, the
    Agency had weatherized 5,670 homes and completed its Recovery Act Weatherization Program.
    Under the Weatherization Program, low-income homeowners and renters received assistance to
    increase the energy efficiency of their homes by sealing duct systems and by installing
    insulation, cooling and heating systems, and energy efficient windows and doors.




                                                   Page 2                Lopez and Company, LLP
 
                                                                              Attachment 1 (continued)
 
 
                               Section II Classification of Findings
 
 
    Material Weakness
 

    For purposes of this engagement, a material weakness is a significant deficiency, or combination
    of significant deficiencies, that results in more than a remote likelihood that a material
    misstatement of the subject matter will not be prevented or detected.
 
 
    Significant Deficiency
 

    For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
    combination of deficiencies, that adversely affects the Agency's ability to initiate, authorize,
    record, process, or report data reliably in accordance with the applicable criteria or framework
    such that there is more than a remote likelihood that a misstatement of the subject matter that is
    more than inconsequential will not be prevented or detected.
 
 
    Advisory Comment
 

    For purposes of this engagement, an advisory comment represents a control deficiency that is not
    significant enough to adversely affect the Agency's ability to record, process, summarize, and
    report data reliably. There were no advisory comments noted in this report.




                                                      Page 3                 Lopez and Company, LLP
 
                                                                 Attachment 1 (continued)
 
 
                        Section III Summary of Findings
 
 
    Material Weaknesses
 

    IV.1   Deficiencies in Contractor Procurement
 
 
 
    Significant Deficiencies
 

    IV.2   Applicant Eligibility Process Needs Improvement
 

    IV.3   Jobs Created and Retained Calculated and Reported Incorrectly




                                           Page 4               Lopez and Company, LLP
 
                                                                             Attachment 1 (continued)
 
 
                               SECTION IV Schedule of Findings
 
    IV.1   Deficiencies in Contractor Procurement (Material Weakness)
 
    Condition
    The Agency selected a contractor to administer its Recovery Act Weatherization Program
    without considering the price of services, as required. In October 2009, the Agency evaluated
    the qualifications of nine potential prime contractors. The Agency rated contractors in areas
    such as knowledge and experience, capacity to perform weatherization services, and quality
    control. However, the Request for Qualifications (RFQ) did not require bidders to submit
    pricing information. State and Federal procurement guidelines require that awards be made to
    the contractor whose bid or offer is responsive to the solicitation and is most advantageous to the
    recipient, with price, quality, and other factors considered. In June 2011, the State also raised
    concerns about the manner in which the Agency solicited bids. While the State allowed the
    contractor selected by the Agency to complete its contract, it required the Agency to prepare a
    solicitation for a post-Recovery Act weatherization contractor that included price as a factor in
    contractor selection.
 
    Further, the Agency had executed multiple contracts with its weatherization contractor; however,
    we found that these contracts did not clearly document agreed-upon terms and conditions.
    Specifically, Agency officials stated that their intent was to execute a fixed-price arrangement
    and made payments based on fixed rates for specific services; however, we found the contracts
    contained language that payments to the contractor were to be on a cost reimbursable basis. For
    example, contract exhibits contained provisions requiring: 1) reimbursements in the amount of
    actual labor, materials and subcontractor services; and, 2) the contractor to maintain
    documentation, including timecards and invoices, for all expenditure of funds. One of the
    contracts did contain a schedule of fixed rates, supporting the Agency's assertion that it intended
    to execute a fixed-price contract.
 
    Cause
    Agency officials structured the procurement competition to focus on obtaining the most
    experienced contractor. Agency officials reported that the State had approved the RFQ process.
    However, State officials informed us that they were originally unaware that the Agency had not
    considered price in selecting a contractor. State officials reportedly believed the term "RFQ"
    referred to "Request for Quotations" and did not understand that the Agency had only requested
    "Qualifications." A State official indicated that had the State understood the "Qualifications
    only" process prior to the procurement, it would not have approved the process.
 
    Further, when establishing the contract, the Agency incorporated certain exhibits that had existed
    in its agreement with the State. These exhibits contained provisions requiring the Agency to be
    paid on a reimbursement basis and that the Agency maintain documentation supporting its
    expenditures. Although the Agency intended to execute a fixed-price contract with its
    weatherization contractor, it did not sufficiently modify or delete the terms of these State
    provisions to reflect the contract's fixed-price nature before incorporating them.



                                                     Page 5                 Lopez and Company, LLP
 
                                                                             Attachment 1 (continued)

                          SECTION IV Schedule of Findings (Cont.)
 
    Effect
    Deficiencies in the procurement of contractor services may have resulted in higher costs being
    incurred for weatherization materials and services. In fact, we found that the Agency requested
    reimbursement for its contractor's weatherization services at rates equivalent to the maximum
    allowed by the State. To control costs, the State had previously established maximum allowable
    reimbursement rates on many weatherization materials and services. The State's agreement with
    the Agency prohibited the use of these maximum allowable rates as fixed fees. Despite the
    State's prohibition, the agency paid its contractor fixed fees for services at these maximum
    allowable rates. Had the Agency considered price in its competition, it may have been able to
    establish rates lower than the State's maximum allowed.
 
    Notwithstanding these procurement deficiencies, the Agency stated that it had subsequently
    confirmed prices paid to its contractor were fair and reasonable through other acceptable price
    analysis methods. Specifically, Agency officials noted that the State determined that the prices
    charged by its contractor were "generally in line with those charged by other service providers
    around the state, thereby ensuring that the charges were not, on their face, unreasonable."
    Additionally, the Agency conducted a competitive bidding process for weatherization services in
    early 2012 that yielded prices that were the same or higher than those charged by the existing
    contractor. The Agency provided documentation that supported the solicitation; submission and
    analysis of bids; and ultimately, the selection of two contractors for post-Recovery Act
    weatherization services. Because this documentation supported the Agency's assertion that
    prices charged under the Recovery Act contract were comparable to bids received during a more
    recent 2012 procurement competition, we are not questioning the costs associated with the
    Recovery Act contract. However, we remain concerned that the Agency, in establishing a fixed-
    rate contract, agreed to pay for weatherization services at the State's maximum rates without
    ensuring up-front that the prices were reasonable. This is especially troubling given that the
    Agency awarded the contract without considering price as an evaluation factor.
 
    Recommendations
    To ensure that weatherization services are procured with free and open competition, with price as
    a considering factor, we recommend the Agency:
 
    1.1    Require price as part of all future contractor solicitations to ensure compliance with State
           and Federal regulations and guidelines; and,
 
    1.2    Ensure that future contracts adequately document the terms and conditions for payments.
 
    Management Response
    The Agency concurred with the finding and reported that it has already begun to implement the
    recommendations.
 
    We consider the Agency's management response to be adequate.



                                                     Page 6                 Lopez and Company, LLP
 
                                                                            Attachment 1 (continued)

                          SECTION IV Schedule of Findings (Cont.)
 
    IV.2   Applicant Eligibility Process Needs Improvement (Significant Deficiency)
 
    Condition
    The Agency's primary weatherization contractor improperly approved and/or documented the
    eligibility of applicants. The Agency relied on its contractor to review and approve applicants
    for weatherization services and maintain the applicants' files. We reviewed 40 separate applicant
    files maintained by the contractor and noted the following:
 
       •   In one of the 40 files reviewed, we found that the contractor had approved an ineligible
           applicant for weatherization services. Specifically, the applicant had monthly income
           greater than the amount allowable for eligibility. Upon further investigation, we noted
           the contractor erroneously used an outdated income determination table when it approved
           this applicant;
 
 
       •   One of the 40 files reviewed lacked sufficient income documentation. As a result, we
           were not able to determine eligibility based on the documentation on file; and,
 
       •   The monthly/annual income calculation for 6 of the 40 files reviewed was incorrect. The
           contractor maintained and utilized a worksheet to calculate the applicants' monthly
           income. Despite the errors, none of the affected applicants were erroneously approved
           for service. Upon our recalculation of these six instances, we confirmed that all six were
           eligible for weatherization services.
 

    In its June 2011 monitoring report, the State identified similar applicant eligibility concerns,
    including an ineligible applicant who received weatherization services and problems calculating
    applicants' incomes. In response to the State's findings, the Agency reportedly began to assume
    some of the duties once performed by its contractor. For example, the Agency took
    responsibility for determining applicants' eligibility prior to any services being performed. In
    addition, the contractor reimbursed the Agency about $2,000, the costs of the services provided
    to the ineligible client identified by the State.
 
    Cause
    The Agency's policies and procedures did not require a review of the eligibility process
    performed by its contractor prior to providing weatherization services. While the Agency
    performed reviews of the applicants' files on a sample basis, these reviews occurred after
    weatherization services had been performed.
 
    Effect
    The Agency's failure to review the income verification process performed by its contractor, prior
    to work being performed, raised the risk that ineligible applicants may have received
    weatherization services. As a result of these issues, we questioned $3,800 of costs incurred for
    weatherization services provided to one ineligible applicant and one applicant whose eligibility
    could not be verified.



                                                    Page 7                 Lopez and Company, LLP
 
                                                                             Attachment 1 (continued)

                          SECTION IV Schedule of Findings (Cont.)
 
    Recommendations
    We recommend the Agency:
 

    2.1     Develop and implement policies and procedures to monitor the application review
            process performed by its contractor and ensure the eligibility of applicants prior to
            providing weatherization services; and,
 

    2.2     Work with the State and the Department to resolve questioned costs.
 
    Management Response
    The Agency concurred with the finding and reported that it has shifted the operations of the
    Weatherization Program so that it is more directly involved in the eligibility process. In
    addition, the Agency has hired new intake specialists to review applicants' files for completeness,
    accuracy, and eligibility prior to weatherization services being performed. These specialists have
    also performed a review of older Recovery Act files to verify proper eligibility, and any
    disqualified costs have been refunded to the State.
 
    We consider the Agency's management response to be adequate.




                                                     Page 8                 Lopez and Company, LLP
 
                                                                            Attachment 1 (continued)

                          SECTION IV Schedule of Findings (Cont.)
 
    IV.3   Jobs Created and Retained Calculated and Reported Incorrectly (Significant
           Deficiency)
 
    Condition
    The Agency's primary contractor incorrectly reported its labor hours for purposes of reporting
    total jobs created and retained under the Recovery Act. Specifically, it reported estimated labor
    hours rather than actual labor hours incurred. The contractor represented that these estimates
    were based on its knowledge of the percentage of labor hours worked between Recovery Act
    funded and non-Recovery Act funded projects.
 

    The Recovery Act requires grantees to submit actual labor hours for reporting of total jobs
    created and retained. Use of undocumented estimated labor hours violated Federal regulations.
 
    Cause
    The Agency lacked policies and procedures to ensure its contractor tracked labor hours for
    Recovery Act work. Additionally, the contractor's timesheets did not properly account for work
    activities by funding source. Further, the Agency lacked an understanding of the contractor's
    reporting practices and estimates.
 
    Effect
    Because of this issue, the number of jobs reported may have been over- or understated; and
    therefore, did not accurately represent the total impact of Recovery Act funds on the local
    economy.
 
    Recommendations
    We recommend the Agency:
 

    3.1    Work with its primary contractor to obtain the actual hours worked for prior reporting
           periods, and correct prior Recovery Act jobs created and retained reports; and,
 

    3.2    Ensure that the contractor develops a procedure to accurately report hours worked under
           the Weatherization Program.
 
    Management Response
    The Agency concurred with the finding and reportedly has worked with its primary contractor to
    incrementally improve the tracking of Recovery Act hours. In addition, procedures to accurately
    track and report Recovery Act hours have been implemented and the Agency will ensure its
    contractors submit job reporting in compliance with their contracts.
 
    We consider the Agency's management response to be adequate.




                                                     Page 9                Lopez and Company, LLP
 
                                       Attachment 1 (continued)

    Section V Complete Management Response
 




                         Page 10       Lopez and Company, LLP
 
                                            Attachment 1 (continued)

        Section V Complete Management Response (Cont.)




                                                                        
     




                              Page 11       Lopez and Company, LLP
                          Attachment 2

    DEPARTMENT COMMENTS
 
 




           Page 12
               
              Attachment 2 (continued)




                                      
 


    Page 13
        
                               Attachment 3


STATE OF CALIFORNIA COMMENTS




           Page 14
               
          Attachment 3 (continued)




Page 15
    
 
                                                                 IG Report No. OAS-RA-13-11


                              CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                                 Date

Telephone                                            Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.




 
 


 

    This page intentionally left blank.




 
 



 




The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
Internet at the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig

    Your comments would be appreciated and can be provided on the Customer Response Form.
 


 




 
